No. 19-7
INTHE

$>Upreme (!Court of tbe Wlniteb $>tate%
SEILALAWLLC,

Petitioner,
V.

CONSUMER FINANCIAL PROTECTION BUREAU,

Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 16th day of December, 2019, I caused three copies of the Brief for Amicus
Curiae Center for the Rule of Law in Support of Petitioner to be served by third-party
commercial carrier on the counsel identified below, and caused an electronic version to
be transmitted to the counsel identified below, pursuant to Rule 29.5 of the Rules of this
Court. All parties required to be served have been served.
Kannon K. Shanmugam
PAUL, WEISS, RIFKIND, WHARTON &
GARRISON LLP
2001 KStreet, NW
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com

Counsel for Petitioner

Paul D. Clement
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Court-Appointed Amicus Curiae in
Support of the Judgment Below

Noel J. Francisco

SOLICITOR GENERAL

U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Room 5616
Washington, DC 20530
(202) 514-2217
supremectbriefs@usdoj.gov

Counsel for Respondent

2

